No. 20-6700

In the Supreme Court of the United States
MELISSA CALABRESE, Petitioner
vs.
STATE OF CALIFORNIA et. al., Respondents

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

/

REPLY BRIEF FOR PETITIONER

Melissa Calabrese, Pro se
2449 South El Camino Real
San Clemente, CA 926723351
(949) 369-6679
enviromed@msn.com

RECEIVED
FEB - 4 2021
OFFICE OF THE CLERK
SUPREME COjRT. OS

QUESTION PRESENTED

Whether a district court order that denied the
appointment of counsel under 28 U.S.C. §
1915(e)(1) for an in forma pauperis Plaintiff,
who is gravely-mentally disabled [never able to
provide for her own food or clothing or shelter
with high suicidality] is appealable on an inter­
locutory basis under the collateral-order doc­
trine.
Respondents agree that multiple courts of appeals have reached
conflicting conclusions over the question of whether there is immedi­
ate interlocutory appealability of the Collateral Order Doctrine. Co­
hen v. Beneficial Indus. Loan Corp., 337 U.S. 541 (1949)

PETITIONER REPLY
1. Respondents do not deny that this Petitioner is gravely-men­
tally disabled in the highest risk group to die by suicide
2. Respondents do not deny that they have treated Petitioner
since 2008 with many involuntary hospitalizations, failed
psychopharmaceutical trials, 13 electroconvulsive (ECT)
treatments and she has never recovered
3. Respondents do not deny that Petitioner has The Americans

01-31-21

Calabrese v. State of CA et al.
Reply Brief of Petitioner

with Disabilities Act of 1990 or ADA (42 U.S.C. § 12101) class
protection rights as decided by this Court in Olmstead v. L.C.,
527 U.S. 581 (1999).
4. Respondents do not deny that they intentionally lied to the
District Court falsely claiming ADA exemption as a private
entity.
5. Respondents do not deny that they discharged Petitioner
from a 5150 involuntary hospitalization to months of home­
lessness, drinking non-potable water and salvaged food (ille­
gal hospital-dumping)
6. Respondents admit that multiple Circuit Court of Appeals
provide conflicting rulings on the same legal issue: immedi­
ate appealability of the Collateral Order Doctrine
7. Respondents state Petitioner's ADA "claims were dismissed
with prejudice as the district court reasoned that an amend­
ment would be futile." That ruling was based on Respond­
ent's fraud on the District Court when they intentionally
falsely claimed ADA exemption as a private entity.
8. Respondents state: "Petitioner never filed a Third Amended

01-31-21

Calabrese v. State of CA et al.
Reply Brief of Petitioner

Complaint; thus, Providence St. Joseph Health and Mission
Hospital brought a motion to dismiss for failure to prosecute
under Federal Rules of Civil Procedure 41(b). D. Ct. " Re­
spondents knew that unrepresented, Petitioner's ADA-pro­
tected disability made it impossible for her to file any re­
sponses. Furthermore, Respondents knew that there was no
need to amend the Second Amended Complaint based on the
District Court denying Petitioner her rightful ADA protec­
tions. The SAC correctly claimed Petitioner’s ADA protec­
tions. The District Court erred based on Respondents' inten­
tionally false claim of ADA exemption.
9. Respondents state:"Petitioner failed to file an opposition and
on September 25, 2020, the district court granted defendants’
motion and ordered the matter dismissed. D. Ct." Respond­
ents knew that unrepresented, Petitioner's ADA-protected
disability made it impossible for her to file any responses.
10.

Respondents state: "Appeal gives the upper court a power

of review, not one of intervention. So long as the matter re-

01-31-21

Calabrese v. State of CA et al.
Reply Brief of Petitioner

mains open, unfinished or inconclusive, there may be no in­
trusion by appeal. ” citing Cohen v. Benefit Indus. Loan Corp.”
Cohen (1949) antedates ADA (1990) and Olmstead (1999).
Respondents knew that Petitioner’s ADA-protected disability
made it impossible for her to litigate at all. A priori, unrep­
resented, the Petitioner could never provide a District Court
record for the Ninth Circuit to review. Respondents enjoy
unlimited top attorney representation to develop their record
and leverage their officer of the court status to commit fraud
the District Court with their false ADA exemption lie.
11.

Respondents state: "By denying the motion without prejudice, the district court invited Petitioner to renew the request

for the court’s consideration on a later date. Petitioner does
not address the district court’s ability or willingness to do
such." The Cert Petition clearly states Petitioner could not
respond due to being gravely-mentally ill and denied any
ADA assistance to file.
12.

Respondents state: "the denial of counsel in civil actions

does not resolve an important issue completely separate from

01-31-21

Calabrese v. State of CA et al.
Reply Brief of Petitioner

the merits of the case. As such, appellate courts can only de­
cide whether the denial of appointment of counsel prejudiced
a litigant’s rights after it assesses the effect of the ruling on
the final judgment." Richardson-Merrell Inc., 472 U.S. at 439
(1985) antedates ADA (1990) and Olmstead (1999).
13.

Respondents state: "Petitioner must demonstrate that the
'denial of immediate review would render impossible any re­
view whatsoever.” Firestone (1981) antedates ADA (1990)
and Olmstead (1999). Because Petitioner's ADA-protected
disability made developing the District Court record impossi­

ble, proper review of that record is a prior impossible.
14.

Respondents state: "Petitioner concedes that the vast ma­

jority of circuits hold that an order denying appointment of
counsel is not immediately appealable." Respondents wordsmith to intentionally mischaracterize the significant multi­
circuit split in this case.
15.

If Petitioner lived in the Third, Fifth, Eighth & Federal
Circuits that allow immediate interlocutory review for ap­

pointment of counsel, she would not have been denied due

01-31-21

Calabrese v. State of CA et al.
Reply Brief of Petitioner

process.
16.

Respondents cite: Appleby v. Meachum, 696 F.2d 145, 14647 (1st Cir. 1983) (per curiam) where the court cited the the­

ory that a district court can reassess a plaintiffs need for
counsel throughout the litigation and thus these orders are
reviewable on appeal.

The docket shows that Petitioner

made several filings to the District Court and three appeals
to the Ninth Circuit to receive IFP consideration for courtappointed counsel.
17.

Respondents cite cases from the Circuits that deny imme­
diate interlocutory appeal in the multi-Circuit split decisions:
Cotner v. Mason, 657 F.2d 1390 (10th Cir. 1981)
Ficken v. Alvarez, 146 F.3d 978, 980 (D.C. Cir.
1998)
Henry v. City of Detroit Manpower Dep’t, 763
F.2d 757, 759 (6th Cir. 1985)
Holt v. Ford, 862 F.2d 850 (11th Cir. 1989)
Miller v. Simmons, 814 F.2d 962 (4th Cir. 1986)
Randle v. Victor Welding Supple Co., 664 F.2d
1064, 1066- 1067 (7th Cir. 1981)
Smith-Bey v. Petsock, 741 F.2d 22 (3rd Cir.
1984)
Welch v. Smith, 810 F.2d 40 (2nd Cir. 1987)

01-31-21

Calabrese v. State of CA et al.
Reply Brief of Petitioner

All these cases antedate ADA (1990) and Olmstead (1999). None
involve discrimination against seriously-mentally-ill Americans.
18.

How Wilborn v. Escalderon differs:
Wilborn appealed a grant of summary judgment
for defendants Rushen and Escalderon in his 42
U.S.C. Sec. 1983 action for deprivation of prop­
erty without due process.
“Before summary judgment was granted, Wil­
born had appealed the district court's denial of
his motion for request of counsel under 28
U.S.C. Sec. 1915(d).1 Because such orders are
not immediately appealable interlocutory or­
ders, we find that the district court properly re­
tained jurisdiction after Wilborn's appeal of that
order.”
“However, we hold that the district court should
have given Wilborn leave both to amend his
complaint and to conduct such discovery as
would support that amendment. Thus, we re­
verse and remand for further proceedings below.
Wilborn v. Escalderon, 789 F.2d 1328 (9th Cir.
1986)

a. The District Court in this case, did not grant Petitioner the
required right “to conduct such discovery as would support
that amendment.” The simplest discovery would have proved
the validity of the SAC. The Defendants’ major fraud on the

01-31-21

Calabrese v. State of CA et al.
Reply Brief of Petitioner

court would have been exposed and forced a hearing and re­
versal of the Court’s Motion to Dismiss order.
b. Furthermore, the Wilborn decision was legally sound because
Frederick Wilborn was mentally competent to self-represent
and had financial resources. Petitioner is not competent and
applying Wilborn denied her ADA Class due process and
equal protection. The District Court wrote affirming Peti­
tioner is not competent and would never be competent to au­
thor anything including a third amended complaint. The Dis­
trict Court denied Petitioner her lifelong ADA accommoda­
tions for assistance from her mother to help file, erroneously
applying Local Rule 83-2.2.1 to completely stopping any fu­
ture amended complaints, motions or responses etc.
c. Finally, Wilborn’s 42 U.S.C. Sec. 1983 action was for depri­
vation of property without due process. Wilborn left his den­
tures behind in his car when he was taken into custody for
parole violations in San Diego. Some six months after Wilborn's arrest, his counsel, who had been appointed to repre-

01-31-21

Calabrese v. State of CA et al.
Reply Brief of Petitioner

sent him in a state criminal proceeding, arranged for the re­
covery of Wilborn's dentures.
19.

Respondents argue: "the Eighth Circuit has held that or-

ders denying the appointment of counsel are immediately ap­
pealable, Hudak v. Curators of University of Missouri, 586
F.2d 105 (8th Cir. 1978) cert, denied, 440 U.S. 985 (1979).
Since the Eighth Circuit has stated it is open to reconsidering
its position in light of the conflicting views from other circuits,
this Court need not use its judicial resources to resolve the con­
flict. " The Eighth Circuit can never resolve the multi-Circuit
Splits on immediate appealability of appointment of counsel.
Only this Court can resolve this important Circuit split. Only
this Court can bring the Collateral Order Doctrine into com­
pliance with the ADA.
20.

Respondents state: "As for the Federal Circuit, the holding
in conflict with the majority view was decided more than
thirty years ago. See Lariscey v. United States, 861 F.2d 1267

(Fed. Cir. 1988). Since then, there have been no published de­
cisions in the Federal Circuit regarding whether an order

01-31-21

Calabrese v. State of CA et al.
Reply Brief of Petitioner

denying the appointment of counsel is immediately appeala­
ble. Given that the vast majority of circuits now hold that such
orders are not immediately appealable, it is likely that the
Federal Circuit would reconsider its position should the issue
arise in the future." Respondents create a delusion that some­
how they know the Federal Circuit will reverse their pub­
lished case approval of immediate appealability of appoint­
ment of counsel proposing a non-existent case that Respond­
ents postulate may be filed sometime in the future.
21. Respondents state: "Lastly, even if a meaningful circuit con­
flict existed, such conflict should be resolved through rulemaking rather than adjudication. As this Court has stated,
“rulemaking, ‘not expansion by court decision, ’ [is] the pre­
ferred means for determining whether and when prejudgment
orders should be immediately appealable.”Mohawk Indus, v.
Carpenter, 558 U.S. 100, 113, 130 S.Ct. 599, 175L.Ed.2d 458
(2009j (citation omitted)." Respondents know for certain that
the significant multi-Circuit split in this case qualifies for re­
view by this Court. They tell this Court to deny this Cert

01-31-21

10

Calabrese v. State of CA et al.
Reply Brief of Petitioner

Petition because Petitioner should have sought rulemaking
instead.
22. Providence St Joseph Health - Mission Hospital Regional
Medical Center has:
a. refused any voluntary remedy since Septem­
ber 2019
b. refused to comply with relevant provisions of
Medi-Cal, the CA Lanterman-Petris-Short
Act, their County of Orange, State of CA Lanterman-Petris-Short Designated Facility con­
tract and the CA Welfare and Institutions
Code.
c. made materially-false representations to the
District Court to intentionally take unfair ad­
vantage of a gravely-mentally disabled pa­
tient who has always lived in their hospital
catchment area and remains assigned to
their care and now
d. refused to even acknowledge ADA accommo­
dations for psychotic patients are required in
the federal courts.

01-31-21

11

Calabrese v. State of CA et al.
Reply Brief of Petitioner

e. argued that their discharge of involuntarilyhospitalized gravely-disabled mentally ill pa­
tients into homelessness fulfills their legal
obligation to discharge to the least restrictive
setting, despite the Olmstead v. L.C. Justices
stating discharge into homelessness is not al­
lowed.
f. breached their duty as officers of the court,
and argue to this Court, fantastical, hypo­
thetical, non-existent case law and
g. argued that a gravely-mentally ill American
who cannot provide for her own food, clothing
or shelter with high suicidality would under­
stand rulemaking or even live long enough to
see rulemaking restore her due process in
federal court.

23.

Respondents argues: "this Court has already held that to

permit widespread appeals on the grounds that an order
causes prejudice would “constitute an unjustified waste of
scarce judicial resources. ” The District Court docket in this
case exceeds 100 documents filed in nine months. The Ninth
Circuit appeal can take two years to even reach a panel for

01-31-21

12

Calabrese v. State of CA et al.
Reply Brief of Petitioner

decision. The case then could require waiting-in-line again
to be heard. Only then can the District Court finally allow
IFP U.S. Marshal service that was unfairly denied Petitioner.
Upon return to this same case, there is inevitable bias from
the first time this case was denied any hearing and then re­
jected. There was an undeniable lack of recognition for the
severe nature of Petitioner's lifelong disability, which has left
her homebound and stripped of basic functioning that others
take for granted.
24.

The court requirements to just keep this case alive since
12-27-19 have been beyond extreme, even under the liberal

pro se pleading standard. Now realistically, the Petitioner is
convinced there will now be even more Defendant retaliation
for continuing this case. She is very scared. Other similarlysituated gravely-mentally ill will never turn to the judiciary
to preserve their rights for fear of Respondents’ unethical tac­
tics. The Founding Fathers established the judicial branch
to protect the minority. In CA, landmark laws such as the
Lanterman-Petris -Short Act (1967) has saved and restored

01-31-21

13

Calabrese v. State of CA et al.
Reply Brief of Petitioner

innumerable lives of the most vulnerable seriously mentally
ill. But when the laws are not properly enforced by the gov­
ernment, as in this case, the only recourse is for injunctive
relief.
25.

This case is exceptional, important, and complex. The in-

junctive relief sought to end Respondents' discrimination
against Medi-Cal psychiatric patients is impossible to obtain
without appointment of counsel. Respondents continue to
threaten the lives of the Medi-Cal gravely-mentally ill with
high suicidality. They will not stop until this case forces
them to follow the law. There are no perfect cases. This case
is ideal for this Cert Petition because it was discharged with­
out a single court hearing in a Motion to Dismiss.
26.

The Ninth Circuit immediate interlocutory consideration

of appointment of counsel that was denied 08-19-29, is the
only remedy that preserves judicial economy. A fortiori, im­
mediate interlocutory appeal also restores due process.

01-31-21

14

Calabrese v. State of CA et al.
Reply Brief of Petitioner

CONCLUSION
Only this Court can timely resolve this important multi-Circuit
split.
Only this Court can advance the 1947 Collateral Order Doctrine
to incorporate important advancements in the law such as ADA and
Olmstead v. L.C.
Only this Court can protect IFP gravely-mentally ill Americans
with high suicidality from these unconstitutional denials of due pro­
cess and equal protection under law.
*****

For the foregoing reasons and those stated in the petition, the
petition for a writ of certiorari should be granted.
Respectfully submitted.

Melissa Calabrese
01-31-21

01-31-21

15

Calabrese v. State of CA et al.
Reply Brief of Petitioner

